Audit Report




OIG-11-029

SAFETY AND SOUNDNESS: Failed Bank Review of First National
Bank of the South

November 16, 2010

 Reissuedreport
Reissued  reporttotoreflect
                     reflectchange
                             changetotothe
                                        thereport
                                            reportcover
                                                   coveronly.
                                                         only.This
 This change
change  has nohas  no impact
               impact   on theon the report.
                               report




Office of
Inspector General
Department of the Treasury
 
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                           November 16, 2010


            OIG-11-029

            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of First National Bank of the South


            This memorandum presents the results of our review of the failure of First National
            Bank of the South (FNBS) located in Spartanburg, South Carolina. The bank opened
            in 2000 as First National Bank of Spartanburg and changed to its current name in
            2002. By 2009, FNBS had opened 13 branches, all located in South Carolina. In
            2008, FNBS acquired Carolina National Bank and Trust of Columbia, South
            Carolina, increasing its assets by $220 million. FNBS was a wholly-owned
            subsidiary of First National Bancshares, Inc., a one bank holding company. The
            Office of the Comptroller of the Currency (OCC) closed FNBS and appointed the
            Federal Deposit Insurance Corporation (FDIC) as receiver on July 16, 2010. As of
            March 31, 2010, FNBS had $682 million in total assets. FDIC estimated that the
            loss to the Deposit Insurance Fund is $74.9 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of FNBS that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OCC reports of examination, and
            (3) interviewed an OCC problem bank specialist and examination personnel.

            We conducted this performance audit in September and October 2010 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and conclusions
            based on our audit objectives. We believe that the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-029
Page 2

Causes of First National Bank of the South’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe and
unsound practices, (2) the bank was in an unsafe and unsound condition to
transact business, and (3) the bank’s capital had been severely impaired.

The primary causes of FNBS’s failure were its aggressive growth strategy,
excessive concentrations in high risk land and commercial real estate (CRE) loans,
and lack of sufficient risk management systems. By 2008, due to deficient risk
controls, FNBS had a significant concentration of poorly underwritten CRE loans
and asset quality began to deteriorate. Examples of the bank’s weak credit risk
management included failure to recognize borrowers’ limited ability to repay loans,
frequent loan renewals with interest-only repayment plans on projects that were
complete, and insufficient staff to ensure timely and accurate credit risk ratings.
These conditions were exacerbated by the downturn in real estate values in coastal
markets and upstate South Carolina. The resultant loan losses led to capital erosion
which ultimately led to FNBS’s failure.


Conclusion
Based on our review of the causes of FNBS’s failure and the grounds identified by
OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OCC.
Accordingly, we have determined that a more in-depth review of the bank’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of FNBS’s
failure and that it had no concerns with our determination that an in-depth review
of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-11-029

       Attachment 1
Management Response
                                                   OIG-11-029

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
